       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                          Concession Management and
                             Fee Collection Operations,
                          Virgin Islands National Park,
                                  National Park Service




Report No. V-IN-NPS-0004-2003                May 2004
                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Eastern Regional Office
                                  381 Elden Street – Suite 1100
                                    Herndon, Virginia 20170



                                                                                    May 17, 2004

Memorandum

To:          Superintendent
             Virgin Islands National Park Service

From:        William J. Dolan, Jr.
             Regional Audit Manager, Eastern Region

Subject:     Final Audit Report “Concession Management and Fee Collection Operations,
             Virgin Islands National Park, National Park Service” (Report No.
             V-IN-NPS-0004-2003)

        The attached report presents the results of our audit of concession management and fee
collection operations at the Virgin Islands National Park on St. John. The objective of our audit
was to determine whether the Virgin Islands National Park followed prescribed procedures for
these operations.

       The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. app. 3)
requires that we report to Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.
Therefore, this report will be added to the next semiannual report.

       Because the eight recommendations contained in this report are considered to be resolved
and implemented, no response is required.


Attachment
[This page intentionally left blank]
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION       Objective and Scope ..................................................................... 2
                   Prior Audit Coverage .................................................................... 3


                   Overview.......................................................................................   4
RESULTS OF AUDIT   Concession Management ..............................................................              4
                   Incidental Business Permits ..........................................................            7
                   Entrance Fee Collections ..............................................................           8


                   To the Park Superintendent........................................................... 12
RECOMMENDATIONS


                   1.   Approved Concessionaires....................................................... 14
APPENDICES         2.   Prior Audit Coverage ............................................................... 15
                   3.   Monetary Impact...................................................................... 16
                   4.   Response to Draft Report......................................................... 17
                   5.   Status of Recommendations..................................................... 26




                                              i
[This page intentionally left blank]




                 ii
INTRODUCTION
                  The Virgin Islands National Park was established in 1956 and
BACKGROUND        includes: about 7,890 acres of land on St. John and 12,708 marine
                  acres surrounding the island, 135 acres of land on Hassel Island in
                  the St. Thomas harbor, and 15 acres of land in the Red Hook area
                  of St. Thomas. Our audit only included a review of Park
                  operations on St. John.

                  The Park’s organizational chart showed 87 full-time positions, but
                  at the time of our review there were only 71 employees. The Park
                  was divided into six divisions: Office of the Superintendent,
                  Administration, Interpretation, Ranger Activities, Resource
                  Management, and Maintenance.

Concession        Three concession operations1 (see Appendix 1) were active on
Operations        St. John: one based on a concession contract and two based on
                  concession permits. The contract concessionaire operated the
                  Cinnamon Bay Campgrounds and food service operations at Trunk
                  Bay and was required to pay the Park a monthly franchise (or
                  concession) fee of 1.5 percent of gross receipts from concession
                  operations. The permit concessionaires operated watersports
                  services at (1) Cinnamon and Trunk Bays at a concession fee of
                  3.25 percent of gross receipts and (2) Maho Bay at a concession
                  fee of 3 percent of gross receipts.

                  In addition to awarding concession contracts, the Park issued
                  “incidental business permits” (also referred to as “commercial use
                  authorizations”) to other businesses to identify and document
                  commercial activities in Park facilities to ensure the protection of
                  resources and the safety and enjoyment of visitors. The Park
                  issued 57 incidental business permits for 2001 and 89 incidental
                  business permits for 2002 (see Appendix 1).

Fee Collections   The Park collected an initial entrance fee of $4 per adult from
                  visitors for daily entry to both Trunk Bay and the Annaberg
                  Historic Site. The Park also sold special multi-use passes issued
                  by the National Park Service that are accepted at all national parks.
                  In addition, permitted businesses with organized tour groups and
                  pre-established arrangements with the Park were billed monthly for

                  1
                    Two companies operated concessions on St. John. However, one company had
                  separate concession operations under a concession contract and under a
                  concession permit. Throughout this report, we classify this one company as two
                  separate concession operations because of the different requirements applicable
                  to each operation.


                                       1
                the entrance fees applicable to their customers. The Park had an
                average of about 650,000 recreational visitors per year. Fee
                collections totaled about $1.1 million during fiscal year (FY) 2001
                and $907,000 during FY 2002.


                The objective of our audit was to determine whether the Virgin
OBJECTIVE AND   Islands National Park followed prescribed procedures for its
SCOPE           concession management and fee collection operations. A separate
                report was issued on our review of concession management and fee
                collection operations of the St. Croix National Park.

                The scope of our audit included a review of concession
                management and fee collection activities and transactions that
                occurred during FY 2001 and FY 2002, and other periods as
                appropriate. To accomplish the audit objective, we interviewed
                Park personnel and reviewed files and documents for concession
                contracts and permits, commercial use authorizations, incidental
                business permits, special use permits, and collections and deposits
                of recreational fees.

                Our audit was conducted in accordance with the “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary under the
                circumstances. The “Standards” require that we obtain sufficient,
                competent and relevant evidence to afford a reasonable basis for
                our findings and conclusions.

                As part of our audit, we evaluated the internal controls related to
                concession management and fee collection operations to the extent
                we considered necessary to accomplish the audit objective.
                Internal control weaknesses in these areas are discussed in the
                Results of Audit section of this report. The recommendations, if
                implemented, should improve the internal controls in these areas.

                We also evaluated the validity of Government Performance and
                Results Act (GPRA) performance measures for the Virgin Islands
                National Park and found them to be appropriate. The Park’s
                performance goals related to (1) preserving park resources, (2)
                providing for the public’s enjoyment and visitor experience, (3)
                strengthening and preserving natural and cultural resources and
                enhancing recreational opportunities, and (4) ensuring
                organizational effectiveness. During FY 2000, the Park expended
                the majority of its budget on the goal related to the public’s
                enjoyment and visitor experience. In FY 2001, the Park focused on



                                       2
              the preservation of park resources. The performance report for FY
              2002 was not available at the time of our review.


              During the past 5 years, the Office of Inspector General has not
PRIOR AUDIT   issued any audit reports on National Park Service operations in the
COVERAGE      Virgin Islands. However, the March 1995 report “Selected
              Administrative Functions, Virgin Islands National Park, National
              Park Service” (No. 95-I-647) disclosed deficiencies related to
              concession operations, property management, and the deposit of
              collections (see Appendix 2).




                                     3
 RESULTS OF AUDIT
                      The Virgin Islands National Park needs to improve its
OVERVIEW              administration of concession management and entrance fee
                      collection operations. Specifically, we found that the Park did not:

                      ► Monitor concession and business permit activities to ensure
                        concessionaires and business permit holders paid appropriate
                        concession and permit fees.

                      ► Maintain complete and accurate records to ensure
                        concessionaire and business permit holders complied with
                        financial and performance requirements.

                      ► Identify unpaid concession and permit fees of more than
                        $60,000.

                      ► Ensure that concessionaires and permit holders complied with
                        all insurance and safety requirements.

                      ► Implement adequate controls over entrance fee collections,
                        resulting in a cash shortage of at least $9,061 and fees owed by
                        tour operators totaling $21,092.


                      National Park Service Guideline 48 and the terms and conditions
CONCESSION            contained in concession contracts and permits require that the Park
MANAGEMENT            obtain and keep specific records. These records would allow the
                      Park to determine if appropriate concession fees were being paid
                      and insurance and safety requirements were being met. Based on
                      our review of the concessionaire files, we found that the Park did
                      not ensure concessionaire compliance with concession fee and
                      documentation requirements.


Sub-Concessionaires   The Park’s contract concessionaire had eight sub-concessionaires
Were Not Approved     from which it collected commissions and concession fees.
                      However, the Park had not approved the sub-concession
                      agreements.

                      In a May 18, 1998, letter to the then Park Superintendent, the
                      contract concessionaire submitted a draft sub-concession
                      agreement and requested formal approval to negotiate and enter
                      into agreements with sub-concessionaires. In the letter, the
                      contract concessionaire also acknowledged the obligation to pay


                                             4
                      the Park 50 percent of fees received from sub-concessionaires.
                      However, we found no documentation at the Park to indicate that a
                      response was sent to the contract concessionaire, or that the matter
                      was otherwise discussed with the concessionaire. Nevertheless,
                      the contract concessionaire entered into at least five
                      sub-concession agreements and three employee contracts for
                      watersports services without the Park’s approval. A Park official
                      told us that she knew businesses were providing watersports
                      services to visitors at various facilities within the Park, but she was
                      not aware of the business arrangements between those businesses
                      and the contract concessionaire.


Sub-Concession Fees   The contract concessionaire charged the sub-concessionaires and
of $55,660 Were Not   contract employees commissions of 15 percent and concession fees
Collected             of 1.5 to 3.25 percent of their monthly gross receipts, but did not
                      remit 50 percent of these fee amounts to the Park, as required by
                      the concession contract. Financial records were available for four
                      of the five sub-concessionaires and, based on our review of those
                      records, we estimated that for the 28-month period of January 2001
                      to April 2003, the contract concessionaire should have remitted to
                      the Park sub-concessionaire fees of about $55,660.

                      We believe the Park should ensure that sub-concession agreements
                      and related employee contracts are approved by the Park as
                      required by the concession contract and that contract
                      concessionaire remit to the Park the appropriate sub-concession
                      fees.


Concession Fees       The Park’s contract concessionaire was required to pay the Park a
Were Underpaid by     monthly concession fee equal to 1.5 percent of gross receipts from
$1,532                concession operations. We noted differences totaling $1,532
                      between the concession fees paid by the contract concessionaire
                      for 2001 and 2002 and the concession fee amounts reported in the
                      concessionaire’s annual financial reports for those years.
                      Specifically, the Park received concession fee payments totaling
                      $43,646 in 2001, but the annual financial statement reported
                      concession fees due of $45,115, for a payment shortage of $1,469.
                      Similarly, the Park received concession fee payments totaling
                      $45,688 in 2002, but the annual financial statement reported
                      concession fees due of $45,751, for a payment shortage of $63.
                      The differences in concession fees were not detected because Park
                      personnel did not reconcile the fees received with the amounts
                      reported in the contract concessionaire’s annual financial reports.




                                              5
                 We believe that if reconciliations of the contract concessionaire’s
                 annual financial reports had been performed, the shortages in
                 concession fee payment amounts would have been detected.


Files Were Not   The Park did not ensure that all concessionaires met compliance
Complete and     and documentation requirements contained in both the National
Accurate         Park Service Guideline 48 and the contract and permit terms.

                 Contract files did not contain evidence that concessionaires and
                 permit holders obtained required insurance for periods prior to
                 2002. As a result, there was no assurance that the concessionaires
                 had the required insurance coverage. In fiscal year 2002, we noted
                 that the contract concessionaire and the two permit concessionaires
                 met or surpassed NPS insurance requirements.

                 The contract concessionaire did not submit financial statements
                 within required timeframes. The audited financial report for 2001
                 was submitted more than 57 days late, and the preliminary
                 financial report for 2002 was submitted 87 days late. Financial
                 reports for the two permit concessionaires were also untimely. In
                 2001, one report was 126 days late and the other was 117 days late.
                 In 2002, one report was 81 days late, and we could not determine
                 when the other was received by the Park. Although Guideline 48
                 requires Park personnel to make reasonable follow-up until the
                 delinquent reports are received, we found no evidence that this was
                 done.

                 Park officials could not provide documentation to show that all
                 required evaluations and/or inspections of concessionaire
                 operations had been performed. Documentation was only
                 available for periodic inspections in June 2001 for the three
                 concessionaires. Health inspection documentation was also only
                 available for March 2000, March and December 2001, and January
                 2003 for the contract concessionaire’s food service operations.
                 There was no documentation of annual operational inspections for
                 the three concessionaires. As a result, there was no assurance that
                 concessionaires met applicable health, safety, maintenance, and
                 other operational requirements. According to a Park official, the
                 Park was missing inspection documents for the period covered by
                 our audit because the Concession Management Specialist position
                 was vacant until 2001. Furthermore, the employee was not fully
                 trained or certified to handle all of the job requirements until
                 October 2002.




                                        6
                      We believe Virgin Islands National Park officials should contact
                      all concessionaires to obtain missing compliance documents and
                      reports, establish policies and procedures to regularly monitor
                      concessionaires’ adherence to compliance and documentation
                      requirements, and conduct and fully document required periodic
                      and annual inspections and evaluations of concessionaire
                      operations.


                      Internal Park procedures establish compliance and documentation
INCIDENTAL
                      requirements and a schedule of annual permit fees for businesses
BUSINESS PERMITS
                      that operate within the Park under incidental business permits.
                      However, we found that the Park did not always charge permit
                      holders the correct permit fees or require them to update their
                      compliance documentation.


Permit Fees Were      Each business with an incidental business permit to operate in Park
Underpaid by $3,050   waters is issued an identification decal for each vessel. To
                      determine if all permit fees were paid accurately and timely, we
                      reviewed the records for 70 permit holders (35 each for 2001 and
                      2002). We found that documentation was not available to verify
                      the accuracy of permit fee collections totaling $9,050 in 2001.
                      Additionally, seven permit holders underpaid permit fees by a total
                      of $3,050 in 2002. For example:

                      ► The Park issued three permit decals to a business that operated
                        a water taxi service with three vessels. However, the Park
                        required the permit holder to pay only $575, which was the
                        permit fee for one vessel of the size used by the business. We
                        determined that the Park charged the business as if it were only
                        operating one vessel, rather than charging $575 for each vessel.
                        As a result, the Park did not collect permit fees totaling $1,150
                        ($575 x 2).

                      ► The Park issued four permit decals to a business that operated
                        day excursions with four vessels. Based on the fee schedule,
                        the permit fee for each vessel was $375. However, the Park
                        collected only $750 ($375 x 2), resulting in a revenue loss of
                        $750.

                      Regarding the timeliness of permit fee payments, we found that in
                      2002, 21 permit holders were from 1 to 95 days late in paying the
                      applicable fees. Records were not sufficient for us to assess the
                      timeliness of fee payments in 2001.




                                             7
Business Licenses      Permit holders did not always renew their business licenses or
and Certificates and   certificates when they had expired. Specifically, we found that:
Insurance Had
Expired                ► Of the 35 permit holders in our 2001 sample, six did not have
                         business licenses and two others had business licenses that
                         expired during the year. In addition, two permit holders did
                         not have required certificates of training in CPR and/or first
                         aid, and we could not determine whether four other permit
                         holders had such certificates of training because the necessary
                         information was not contained in the files. Further, seven
                         permit holders’ insurance coverage had expired during the
                         year.

                       ► Of the 35 permit holders in our 2002 sample, 7 did not have
                         business licenses and 12 others had business licenses that
                         expired during the year. In addition, five permit holders’
                         inspection certificates had expired, and one permit holder was
                         issued a temporary business license during the year. Further,
                         five permit holders’ insurance coverage had expired during the
                         year. Ten other permit holders did not have the required
                         automobile insurance to protect the Park from a liability claim
                         in the event of an accident on Park property because the Virgin
                         Islands insurance companies only provide coverage to protect
                         the owner of the vehicle.

                       These instances of noncompliance with permit requirements
                       occurred because the Park had an honor system that allowed permit
                       holders to voluntarily bring in the necessary documents, without
                       any follow-up by Park personnel. A Park official said that the Park
                       did not have sufficient staff to track the expiration dates of
                       pertinent documents, such as insurance policies, and to contact
                       permit holders to compel them to update their files. As a result of
                       this relaxed compliance documentation process, there was no
                       assurance that incidental business permit holders had the
                       qualifications, training, and insurance coverage necessary to
                       safeguard visitors and protect resources of the Park.


                       Two cashier booths at Trunk Bay and one booth at the Annaberg
ENTRANCE FEE           Historic Site were open on a daily basis year-round for collection
COLLECTIONS            of visitor entrance fees. However, internal controls over the fee
                       collection process were inadequate, placing cash collections at risk
                       of misappropriation.




                                              8
Deposits Were $9,061    To determine if the Park deposited all entrance fee collections, we
Less Than Collections   reviewed the collection and deposit records for the period of
                        January 1999 to October 2002. We found 31 discrepancies that
                        resulted in deposits of $9,061 less than the amounts collected, as
                        follows:

                                       Calendar Year          Shortage Amount
                                           1999                      $930
                                           2000                     2,715
                                           2001                     3,617
                                           2002                     1,799

                                            Total                   $9,061

                        Specific examples of the identified discrepancies were as follows:

                        ► For June 27, 2000, the collection records for one of the
                          collection booths at Trunk Bay showed total collections of
                          $702. But another set of collection records was changed from
                          $702 to show collections of $502. Further, although the
                          collections from the three collection booths totaled $1,906,
                          only $1,706 was deposited, for a shortage of $200.

                        ► For May 8, 2002, one set of records showed total collections of
                          $1,786. However, the deposit records showed that only $878
                          was deposited, for a shortage of $908.

                        We referred our findings to OIG Investigations for appropriate
                        follow-up.


Controls Over Fee       Our review disclosed several practices that contributed to weak
Collections Were        internal controls over the collection of entrance fees. These
Inadequate              internal control weaknesses included: (1) not limiting physical
                        access to cash collections, (2) not maintaining adequate separation
                        of responsibilities for collections and deposits, (3) not reconciling
                        daily collections and deposits, and (4) not providing adequate
                        supervision of collection personnel.

                        The National Park Service’s Recreation Fee Guideline 22 states
                        that the combinations of safes used to secure collections should be
                        known only to employees who use the safes as part of their cashier
                        or fee collection responsibilities. However, since 1999, the
                        supervisor of the Fee Demonstration Program had keys to the cash
                        drawers used by the individual cashiers and knew the combinations




                                                9
                      for all the safes. Therefore, access to cash collections was not
                      adequately limited.

                      Additionally, the Park’s Fee Collection Standard Operating
                      Procedures state that, for accountability purposes, two employees
                      (one of whom was the supervisor) will open, count, and verify all
                      of the shift envelopes.2 However, we found that these activities
                      were being performed by only one individual – either the
                      supervisor, her assistant, or her designee. A Park employee stated
                      that the fee collection program was short-staffed and, as a result,
                      only one person was available to perform these activities.
                      Therefore, there was inadequate separation of responsibilities to
                      safeguard cash collections.

                      Further, the staff of the Fee Demonstration Program was not
                      adequately supervised. The Chief of Interpretation stated that he
                      did not provide supervision to the Program and instead acted only
                      as a secondary supervisor. Lacking this formal supervision,
                      reports prepared by the supervisor of the Fee Demonstration
                      Program were not verified nor reviewed by a higher-level Park
                      official. Since the Fee Demonstration Program functioned under
                      the Division of Interpretation and the Program was short-staffed,
                      we believe that the Chief of Interpretation should have been more
                      involved in supervising the Fee Demonstration Program.

                      The Park should take steps to improve the internal controls over
                      entrance fee collections, particularly with regard to limiting access
                      to the cashier drawers, having certain critical functions (such as the
                      reconciliation of collections and deposits) cross-checked by two
                      Park employees, and requiring the Chief of Interpretation to
                      exercise a greater degree of supervisory oversight of the fee
                      collection process.


Tour Operators Owed   Established procedures required that the Park issue Bills of
Fees of $21,092       Collection each month to tour operators for the entrance fees due
                      for their passengers who entered either Trunk Bay or the Annaberg
                      Historic Site. However, we found that the Park did not always
                      issue monthly bills and had not collected at least $21,092 in
                      entrance fees from tour operators, as follows:

                      ► The Park did not bill tour operators for entrance fees totaling
                        $4,556. This consisted of $1,060 that was not billed to
                        12 businesses and $3,796 for which we found no evidence that

                      2
                       The “shift envelopes” contain the cash and related documents for collections
                      during each cashier’s work shift.


                                                10
   2 businesses had been billed; minus an off-set of $300 for
   2 businesses that had been overcharged. These discrepancies
   occurred because no one was specifically assigned to prepare
   Bills of Collection prior to February 2001.

► The Park did not collect $16,536 in entrance fees from a tour
  operator for tours during the periods of February and April to
  August 1999. Although the Park issued six Bills of Collection
  to the tour operator, it did not revoke the operator’s permit
  until April 2001 (more than 2 years after the initial
  delinquency). The $16,536 in fees still had not been paid as of
  March 2003.

A Park employee told us that many factors contributed to the
delinquencies. For example, the Park did not: (1) assign an
employee to prepare and monitor the status of Bills of Collection
during 1999 and 2000, (2) timely submit delinquent Bills of
Collection to the National Park Service’s regional office in Atlanta,
Georgia, for collection, (3) explain to Park personnel the
responsibility for the collection of delinquent fees, and (4) develop
and implement specific procedures for collection enforcement. At
the time of our review, the Park was testing new procedures for
collection of Bills of Collection.




                       11
RECOMMENDATIONS
                 We recommend that the Superintendent of the Virgin Islands
TO THE PARK      National Park:
SUPERINTENDENT
                       1. Identify the level of sub-concession activities operated
                 through the Park’s concessionaires; request concessionaires to
                 provide the Park with copies of sub-concession agreements for
                 required approval; request concessionaires to provide the Park with
                 copies of sub-concessionaires’ financial reports so that appropriate
                 sub-concession fees can be calculated; and collect the appropriate
                 sub-concession fees, including prior period fees of about $55,660.

                       2. Perform a preliminary review of the annual financial
                 reports of concessionaires, reconcile the concession fees reported
                 in the financial reports with the amounts paid by the
                 concessionaires, and collect any additional concession fees that are
                 determined to be due.

                       3. Obtain missing compliance documentation from
                 concessionaires, establish policies and procedures to regularly
                 monitor concessionaires’ adherence to compliance and
                 documentation requirements, and conduct and fully document
                 required inspections and evaluations of concessionaire operations.

                       4. Review the fee requirements for all incidental business
                 permits and ensure that existing permit holders and new applicants
                 make timely payments of the correct fee amounts. The Park should
                 also collect the $3,050 that was underpaid for prior year incidental
                 business permit fees.

                       5. Create a tracking system to ensure that incidental business
                 permit holders update business licenses, insurance coverage, and
                 other compliance documentation that may expire during the active
                 period of the permits.

                       6. Ensure that adequate internal controls are in place and
                 functioning properly for the Fee Demonstration Program.
                 Adequate internal controls should include limiting access to the
                 cashier drawers, having certain critical functions (such as the
                 reconciliation of collections and deposits) cross-checked by two
                 Park employees, and exercising a greater degree of supervisory
                 oversight of the fee collection process.




                                       12
                          7. Implement policies and procedures to ensure that the Park
                   promptly bills tour operators for the entrance fees applicable to
                   their passengers and revokes delinquent tour operators’ permits if
                   they do not promptly make arrangements for and pay off
                   delinquent Bills of Collection.

                         8. Promptly refer delinquent payments from tour operators
                   to the National Park Service’s regional office in Atlanta for
                   collection.


                   We received an April 9, 2004, response (Appendix 4) to the draft
AUDITEE RESPONSE
                   report from the National Park Service’s Associate Director for
                   Administration, Business Practices and Workforce Development.
                   The response concurred with the recommendations and indicated
                   that corrective actions had been or were being taken. Therefore,
                   we consider Recommendations 1 through 8 to be resolved and
                   implemented (Appendix 5).




                                         13
 APPENDIX 1 – APPROVED CONCESSIONAIRES

                                         Concessionaire Name                        Purpose of Concession
CONCESSION
CONTRACT                            Caneel Bay, Inc.                            Cinnamon Bay Campgrounds
                                                                                and food service at Trunk Bay

                                    Sub-concession Agreements:*
                                       Paradise Aqua Tours, Inc.                Snorkel rental at Trunk Bay
                                       Snorkelmania                             Snorkel tours at Caneel Bay
                                       Paradise Watersports                     Dive center at Caneel Bay
                                       St. John Watersports                     Sailing charters at Caneel Bay
                                       Vicki Uzzell                             Massage therapy at Caneel Bay

                                    Employment Agreements:*
                                       Frank Cummings                           Scuba tours at Trunk Bay
                                       Richard Falkenburg                       Sail charters at Cinnamon Bay
                                       Richard Metcalfe                         Watersports at Cinnamon Bay


                                         Concessionaire Name                        Purpose of Concession
CONCESSION
PERMITS                             Caneel Bay, Inc.                            Watersports at Caneel Bay

                                    Maho Bay, Inc.                              Watersports at Maho Bay


                                       Calendar Year 2001                            Calendar Year 2002
INCIDENTAL
BUSINESS PERMITS                    Day Sail                   37               Water-Based Activities         41
                                    Water Taxi                  1               Land-Based Activities          30
                                    Scuba Tours                 4               Other Activities               18
                                    Kayak Tours                 1
                                    Land-Based Tours            7                   Total                      89
                                    Hiking Tours                1
                                    Bicycle Tours               1
                                    Weddings/Events             5

                                        Total                  57
__________
* These businesses were in operation within the Virgin Islands National Park although the sub-concession and
employee agreements had not been submitted to the Park for approval.




                                                               14
APPENDIX 2 – PRIOR AUDIT COVERAGE
                 The March 1995 report “Selected Administrative Functions, Virgin
OFFICE OF        Islands National Park, National Park Service” (No. 95-I-647)
INSPECTOR        stated that the Park did not (1) ensure that franchise fee
GENERAL REPORT   reconsiderations were conducted and implemented in a timely
                 manner, (2) assess reasonable fees for the use by concessionaires
                 of government buildings, (3) obtain reimbursement for refuse
                 collection and other services provided to concessionaires, and (4)
                 consistently authorize commercial boating operations in the Park.
                 In addition, concessionaires had not reimbursed the Park for
                 $57,000 in expenses related to providing refuse collection, sewage
                 treatment, and water system maintenance. Regarding other
                 administrative functions, the Park did not dispose of unserviceable
                 equipment valued at $48,000 in a timely manner and held
                 collections of up to $22,000 for several months before deposit.
                 Based on the Park Superintendent’s response to the draft report, all
                 of the report’s recommendations were considered resolved.




                                       15
APPENDIX 3 – MONETARY IMPACT
FINDING AREA                                   Unrealized
                                               Revenues*

Unpaid Sub-Concession
  Fees                                          $55,660

Underpaid Concession
  Fees                                            1,532

Underpaid Incidental
  Business Permit Fees                            3,050

Entrance Fee Shortages                            9,061

Unpaid Tour Operator
  Fees                                           21,092

   Totals                                       $90,395




 __________
 * All amounts represent Federal funds.




                                          16
                                        Appendix 4
                                        Page 1 of 9

APPENDIX 4 – RESPONSE TO DRAFT REPORT




                      17
     Appendix 4
     Page 2 of 9




18
     Appendix 4
     Page 3 of 9




19
     Appendix 4
     Page 4 of 9




20
     Appendix 4
     Page 5 of 9




21
     Appendix 4
     Page 6 of 9




22
     Appendix 4
     Page 7 of 9




23
     Appendix 4
     Page 8 of 9




24
     Appendix 4
     Page 9 of 9




25
APPENDIX 5 – STATUS OF RECOMMENDATIONS

Finding/Recommendation                               Action Required
       Reference             Status
                                        No further response required.
        1 to 8           Resolved and
                         implemented.




                               26
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free               800-424-5081
                           Washington Metro Area           202-208-5300
                           Hearing Impaired (TTY)          202-208-2420
                           Fax                             202-208-6081
                           Caribbean Field Office          340-774-8300
                           Hawaiian Field Office           808-525-5310
             Internet:     www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
